Memorandum from the Office of the Inspector General



January 4, 2011

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2010-13025 – DISTRIBUTOR REVIEW OF
NORTH GEORGIA ELECTRIC MEMBERSHIP CORPORATION



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact Richard C.
Underwood, Project Manager, at (423) 785-4824 or Melissa M. Neusel, Acting Director,
Distributor Audits, at (865) 633-7357. We appreciate the courtesy and cooperation
received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Michael B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Robert A. Morris, WT 7C-K
      Emily J. Reynolds, OCP 1L-NST
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2010-13025
 


        
 


                                 Audit Report
 
Office
      of the Inspector General                             

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                           

 

 

 


DISTRIBUTOR REVIEW
 

 

OF NORTH GEORGIA
 


ELECTRIC MEMBERSHIP
 



CORPORATION
 




 




 

 
 
 

 
Audit Team                                 Audit 2010-13025
Richard C. Underwood                        January 4, 2011
Jessica L. Monroe
Stephanie L. Simmons

                                           . 
Office of the Inspector General                                            Audit Report




ACRONYMS AND ABBREVIATIONS
FY                         Fiscal Year
kW                         Kilowatt
NGEMC                      North Georgia Electric Membership Corporation
OIG                        Office of the Inspector General
RUS                        Rural Utilities Services
TVA                        Tennessee Valley Authority




Audit 2010-13025
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS
   OF THE SAME RATE CLASS .......................................................................... 2

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 4

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 6

RECOMMENDATIONS .................................................................................. 6


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED DECEMBER 21, 2010, FROM KATHRYN D. WEST TO
   ROBERT E. MARTIN

C. MEMORANDUM DATED DECEMBER 21, 2010, FROM JOHN G. TRAWICK
   TO ROBERT E. MARTIN




Audit 2010-13025
                     Audit 2010-13025 – North Georgia Electric
                             Membership Corporation
                                  EXECUTIVE SUMMARY

Why the OIG Did This Review
  As part of the annual audit plan, the OIG (Office of the Inspector General) performed a
  review of North Georgia Electric Membership Corporation (NGEMC), which is a
  distributor for Tennessee Valley Authority (TVA) power based in Dalton, Georgia.
  Annual revenues from electric sales were approximately $232 million in fiscal year 2009.
  The objective of the review was to determine compliance with key provisions of the
  power contract between TVA and NGEMC.

What the OIG Found
  Our review of NGEMC found improvements were needed in the area of customer
  classification. We identified 34 customer accounts not classified correctly. We
  estimated the monetary effect of the classification issues and found it would not be
  significant. However, there are qualitative issues that are significant due to their
  systemic nature. Some of the misclassifications identified resulted from (1) an ongoing
  NGEMC policy to classify separately metered well pumps serving residences as
  residential rather than commercial and (2) a discontinued policy to classify any facility
  that had living quarters, including group homes and cabins, owned by individuals and/or
  organizations as residential.

  In addition, we found, as of June 30, 2009, NGEMC’s cash ratio was about 2 percent,
  which is less than TVA’s established guidelines for adequate cash reserves of
  5 to 8 percent. Finally, we identified opportunities to enhance TVA’s oversight of the
  distributors that were also reported in previous distributor audits. TVA is in the process
  of addressing these findings regarding (1) the lack of guidance for distributors on what
  constitutes prudent expenditures and (2) defining the process for granting the Small
  Manufacturer Credit.

What the OIG Recommends
  We recommend the Group President, Strategy and External Relations, work with
  NGEMC to (1) remediate classification issues and (2) modify the NGEMC policy
  regarding classification of well pumps serving a residence.

Management’s Comments
  NGEMC and TVA management agreed with our recommendations and have taken or
  are taking actions to address the recommendations. The target completion date for all
  corrective actions is December 2011. See Appendix B for NGEMC’s complete response
  and Appendix C for TVA’s complete response.

Auditor’s Response
  The OIG concurs with actions taken and planned by NGEMC and TVA to correct the
  identified issues.
                                                                                        Page i
Office of the Inspector General                                                                  Audit Report


BACKGROUND
North Georgia Electric Membership Corporation (NGEMC) is a distributor for
Tennessee Valley Authority (TVA) power based in Dalton, Georgia, with revenues
from electric sales of approximately $232 million in fiscal year (FY) 2009. TVA
relies on distributors to self-report customer usage and subsequently the amount
owed to TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classes are various rate
classifications based on the customer type and usage. Table 1 shows the
customer mix for NGEMC as of June 2009.

                          NGEMC’s Customer Mix as of June 2009
                                                Number of                                    Kilowatt
        Customer Classification                                         Revenue
                                                Customers                                   Hours Sold
    Residential                                          84,256         $ 137,938,807       1,464,428,857
    General Power – 50 Kilowatt (kW)
                                                         12,354             15,916,956        138,822,729
    and Under (Commercial)
    General Power – Over 50 kW
                                                           1,136            71,865,287        875,984,931
    (Commercial or Manufacturing)
    Street and Athletic                                      205               200,665           2,621,883

    Outdoor Lighting1                                        543             3,252,437          21,221,828

    Unbilled Revenue                                                         2,940,262

     Total                                               98,494         $ 232,114,414       2,503,080,228
                                                                                                     Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. NGEMC, like many other distributors, outsources its billing and
invoice processing to a third-party processor. NGEMC utilizes utilityPOWERnet
from Southeastern Data Cooperative, a computerized Customer Information
System, to maintain information for all billing, accounting, and payroll. All other
accounting and finance responsibilities are handled by NGEMC’s Board of
Directors, President and Chief Executive Officer, and executive management
team who provide oversight and perform the daily activities.




1
     This customer count excludes those customers who have Outdoor Lighting accounts with NGEMC as
     well as accounts for other services. At June 30, 2009, there were 19,849 of these customers. The
     kilowatt hours sold includes all kilowatt hours for all accounts; revenue also includes all accounts.
Audit 2010-13025                                                                                      Page 1
Office of the Inspector General                                                                      Audit Report


FINDINGS
Our review of NGEMC found issues involving customer classification that could
impact (1) the proper reporting of electric sales and/or (2) nondiscrimination in
providing power to members of the same rate class. In addition, we found, as of
June 30, 2009, NGEMC’s cash ratio was about 2 percent, which is less than
TVA’s established guidelines for adequate cash reserves of 5 to 8 percent.
Finally, as we explain herein, we found certain opportunities to enhance TVA’s
oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO
MEMBERS OF THE SAME RATE CLASS
As discussed below, we identified a customer classification issue that could
impact (1) the proper reporting of electric sales and/or (2) the ability to ensure
nondiscrimination in providing power to members of the same rate class.2 We
estimated the monetary effect of the classification issues and found the monetary
effect would not be significant. However, there is a qualitative issue that is
significant due to misclassifications resulting from an NGEMC policy. Correcting
customer classification and metering issues is important to ensure all customers
are placed in the correct rate classification and charged the same rate as other
customers with similar circumstances.
Customer Classification Issues
Our review of customer classification at NGEMC identified 302 possible
misclassifications. We provided a listing of these 302 accounts to NGEMC for
further review, and they determined that 268 of these accounts were
appropriately classified and noted 34 misclassified customer accounts. The
34 customer accounts were classified under the Residential Rate – Schedule
RS,3 although they should have been classified under the General Power Rate –
Schedule GSA.4 The GSA schedule is divided into three parts—Part 1, Part 2,
2
    Section 5 Resale Rates subsection (a) of the power contract between TVA and the distributor states that
    “power purchased hereunder shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class and that no discriminatory rate, rebate, or other
    special concession will be made or given to any consumer, directly or indirectly.”
3
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
4
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13025                                                                                           Page 2
Office of the Inspector General                                                                 Audit Report


and Part 3—based on electric usage and demand.5 Specifically, we noted:

    Fifteen customer accounts were for services other than residential use, such
     as shops and garages.
    Nine customer accounts classified as residential were separately metered
     well pumps that served the residence according to NGEMC personnel.
    One customer account was a group home.
    Nine customer accounts were cabins owned by nonprofit organizations.

NGEMC personnel stated they reclassified the 15 customer accounts and one of
the nine well pumps from residential to GSA in August 2010. We estimated the
monetary effect of all the classification issues and found the monetary effect
would not be significant.

While these misstatements are not significant from a quantitative standpoint,
there are qualitative issues that are significant due to their systemic nature
caused by NGEMC policies effective during the audit period. The identified
misclassifications were found to be systemic in nature in the following two areas:

    NGEMC management stated it was their policy to allow accounts for
     separately metered well pumps to be classified as residential if the well pump
     only services a residence. However, according to the Residential Rate –
     Schedule RS, only service “to a single-family dwelling (including its
     appurtenances if served through the same meter)” qualifies for the residential
     rate; therefore, separately metered well pumps should be billed under a GSA
     rate.
    NGEMC management also stated that in prior years NGEMC consistently
     used the residential classification for any facility with living quarters—this
     would include group homes and cabins owned by individuals and/or
     organizations. NGEMC management stated this is no longer practiced, and
     they recognize these types of accounts should be classified as GSA. NGEMC
     is in the process of reviewing classification of these types of accounts to
     determine if changes are needed; however, as of November 3, 2010, no
     accounts had been reclassified. The Office of the Inspector General (OIG)
     concurs with these planned actions.
5
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2010-13025                                                                                      Page 3
Office of the Inspector General                                                                   Audit Report


While our testing identified 19 instances where the well pump and group home
and cabin policies resulted in a misclassified customer account, we do not know
how many other such instances may exist. In addition, NGEMC has received a
hydro credit on the Schedule 1 for each well pump, group home, and cabin
incorrectly classified as residential. We estimated the monetary effect of the
resulting unearned hydro credits and found the monetary effect would not be
significant.

USE OF ELECTRIC SYSTEM REVENUES
Under Section 6 of the TVA power contract, “Use of Revenues,” approved uses of
revenues from electric system operations, including any surplus, are (1) operating
expenses, (2) debt service, (3) tax equivalent payments, and (4) reasonable
reserves for renewals, replacements, and contingencies. As discussed below, we
found NGEMC did not have enough cash on hand to provide a cash reserve
within TVA’s established guidelines for adequate cash reserves of 5 to 8 percent.6

As of June 30, 2009, NGEMC reported about $4.5 million in its cash and cash
equivalent accounts. Table 2 shows NGEMC’s cash ratio was about 2 percent.
This amount is lower than TVA’s established guidelines for adequate cash
reserves of 5 to 8 percent.

                         NGEMC’s Cash Accounts and Cash Ratio
                                                              Cash and Cash
                                                               Equivalents
                        FY 2009                                         $4,535,303
                        Cash Ratio                                            2.07%
                                                                               Table 2

NGEMC funds its capital expenditures through use of the United States
Department of Agriculture, Rural Utilities Services (RUS)7 Electric Program, upon
completion of capital projects. Table 3, as shown on the following page, shows
information about major capital expenditure plans for FY 2010 obtained from
NGEMC.




6
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                           Cash + Cash Equivalents
                             Total Variable Expenses (Operations and Maintenance + Purchased Power)
7
    The United States Department of Agriculture, Rural Utilities Services Electric Program, provides
    leadership and capital to upgrade, expand, maintain, and replace America's rural electric infrastructure.
    Under the authority of the Rural Electrification Act of 1936, the Electric Programs make direct loans and
    loan guarantees to electric utilities to serve customers in rural areas.
Audit 2010-13025                                                                                       Page 4
Office of the Inspector General                                                                Audit Report


                    NGEMC’s FY 2010 Planned Capital Expenditures

                        Capital Expenditure Plans                                     Project Cost
New Underground Service                                                                     $2,577,916
New Overhead Service                                                                         1,225,901
Line Conversion/Changes                                                                      4,725,499
New Substations                                                                              2,722,989
Substation and Meter Point Changes                                                           2,040,629
Transformer and Meters                                                                       1,411,410
Sets of Service Wire                                                                             2,041
Sectionalizing                                                                                 168,880
Capacitors                                                                                      11,397
Ordinary Replacements (poles)                                                                5,114,183
Security Lights                                                                                358,548
Supervisory Control and Data Acquisition                                                        77,174
     Total Planned Capital Expenditures                                                    $20,436,567
                                                                                                   Table 3

Although planned expenditures for FY 2010 were approximately $20 million,
NGEMC’s actual capital expenditures in FY 2010 totaled approximately
$12.2 million, and NGEMC obtained about $12 million in loans from RUS.
Because of the method NGEMC has selected for funding its capital
improvements, these items have limited impact on NGEMC’s ongoing cash
position.

According to TVA records, over the past five years, NGEMC was approved for
rate increases in October 2005, 2006, and 2008 and in January 2008. Table 4
shows the rate increases received by NGEMC and the cash position and cash
ratio at June 30 prior to the effective date of each rate increase.

               NGEMC’s Rate Increases, Cash Position, and Cash Ratio

     Cash on Hand             Cash and Cash                               Rate Increase8
    Equivalent to an      Equivalents as Reported
                                                           Additional
     8% Cash Ratio            and Cash Ratio                                Percent      Effective Date
                                                           Revenue

      $11,924,348                 $1,610,464               $5,115,957        3.28%          10/1/2005
                                  (CR = 1.08%)

      $14,105,327                 $3,462,085               $2,000,000        1.26%          10/1/2006
                                  (CR = 1.96%)

      $14,853,782                 $10,055,351               $281,846         0.14%           1/1/2008
                                  (CR = 5.42%)

      $15,427,974                 $6,117,539                $958,231         0.48%          10/1/2008
                                  (CR= 3.17%)
                                                                                                   Table 4


8
     These are the rate increases requested by and approved for the distributor. These increases do not
     include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
     passed through by the distributor to the customer.
Audit 2010-13025                                                                                     Page 5
Office of the Inspector General                                           Audit Report


Discussions with NGEMC management indicated their operating philosophy was
to manage debt through borrowing and open loans with RUS. NGEMC
establishes a workplan for work anticipated over the next four years and requests
loan packages based on that workplan. Depending on allocations made to the
program by Congress, the money may or may not be available. When the funds
are allocated or approved by the government, then the funds become available
for NGEMC to draw upon.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA’s oversight of this distributor; however,
the issues noted for this distributor were the same as those reported in previous
OIG distributor reports. Specifically, we noted TVA has not:

   Provided definitive guidance for distributors on what constitutes prudent
    expenditures.
   Adequately defined the process for granting the Small Manufacturer Credit to
    ensure proper documentation, including evidence of approval, is submitted
    and maintained.

In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA’s planned actions can be
found in prior OIG distributor reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
NGEMC to improve compliance with the contract and/or strengthen internal
controls. Specifically, NGEMC should:

1. Implement procedures to assist in identifying accounts that need to be
   reclassified as commercial when service starts or changes to a nonresidential
   type (i.e., business or separately metered structure).

    NGEMC's Response – NGEMC agreed with the recommendation and stated
    accounts identified during the OIG audit were in the process of being
    reclassified to the recommended rate/class. In addition, management stated
    policies and procedures were in place to address the proper classification of
    accounts when service begins to ensure compliance with proper rate/class.
    NGEMC is exploring steps to allow for review of existing accounts to
    determine proper classification in the event that a former residence is
    repurposed as a nonresidential facility without notification to the co-op.
    NGEMC is making classification changes to accounts identified during the
    OIG audit and plans to have them completed on or before September 2011.
    See Appendix B for NGEMC's complete response.


Audit 2010-13025                                                                Page 6
Office of the Inspector General                                            Audit Report


    TVA Management’s Comments – TVA agreed electric service should be
    provided in accordance with the availability provisions of the applicable rate
    schedules. The target completion date for this is September 2011. See
    Appendix C for TVA’s complete response.

    Auditor's Response – The OIG concurs with the planned actions.

2. Modify the policy classifying well pumps serving residences as residential
   accounts and classify these accounts as GSA.

    NGEMC's Response – NGEMC agreed with the recommendation and stated
    the policy of classifying well pumps as residential accounts had been
    changed as of completion of the audit. NGEMC stated all new accounts of
    this type are being and will continue to be classified as a GSA account. The
    effective date of this change was December 1, 2010. See Appendix B for
    NGEMC's complete response.

    TVA Management’s Comments – TVA management agreed the distributor's
    customer rate classification policy should be consistent with the rate
    schedules. The policy of classifying well pumps as residential accounts had
    been changed as of completion of this audit. All new accounts of this type are
    being and will continue to be classified as a GSA account. The effective date
    of this change is December 1, 2010. See Appendix C for TVA's complete
    response.

    Auditor's Response – The OIG concurs with the actions taken.

3. Modify the rate classes of the customer accounts from residential to GSA for
   the identified separately metered well pumps.

    NGEMC's Response – NGEMC agreed with the recommendation and stated
    accounts identified during the OIG audit were in the process of being
    reclassified to the proper rate/class. NGEMC further stated review of
    residential class customers to identify and reclassify separately metered well
    pumps will be conducted in the coming months with a targeted completion
    date of December 2011.

    TVA Management’s Comments – TVA management agreed customer rate
    classification should comply with the applicable rate schedule. TVA
    management also stated the distributor was in the process of reclassifying
    accounts to the correct rate and class. The planned completion date is
    December 2011. See Appendix C for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.




Audit 2010-13025                                                                Page 7
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between the
Tennessee Valley Authority (TVA) and North Georgia Electric Membership
Corporation (NGEMC) including:
   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted; therefore, the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. We reviewed results of the queries and selected
    accounts using nonstatistical sampling for further analysis and follow-up to
    determine whether misclassification, metering issues, or noncompliance with
    contract requirements occurred. Since nonstatistical sampling was used,
    projection of the results was not appropriate.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether NGEMC
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listings for the audit period. We reviewed and
    analyzed disbursements to identify instances where electric system funds
    may have been used for purposes not allowed under the TVA power contract.
    We used nonstatistical sampling to select questionable disbursements for
    further analysis and follow-up. Since nonstatistical sampling was used,
    projection of the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                     APPENDIX A
                                                                      Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. For this audit, this amount
equaled $5,408,950. Also for the purposes of this audit, we considered any
errors identified as systemic or intentional as significant.

The scope of the review was for the period July 2007 through June 2009.
Fieldwork was conducted May 2010 through July 2010 and included visiting
NGMEC’s offices in Dalton, Georgia. This performance audit was conducted in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
 Page 1 of 2
APPENDIX B
 Page 2 of 2
APPENDIX C
 Page 2 of 2
